State of New Jersey
PHILIP D. MURPHY
Governor

OFFICE OF THE ATTORNEY GENERAL
DEPARTMENT OF LAW AND PUBLIC
SAFETY
DIVISION OF LAW

GURBIR S. GREWAL

25 MARKET STREET

MICHELLE L. MILLER

SHEILA Y. OLIVER
Lt. Governor

PO Box 093

Attorney General

Director

TRENTON, NJ 08625-0093

April 30, 2020
Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: PennEast Pipeline Company, LLC v. State of New Jersey et al., No. 19-1039
Dear Mr. Harris:
Respondents the State of New Jersey and the New Jersey Conservation Foundation write
to respectfully request a 30-day extension to file responses to the petition for a writ of certiorari in
this matter, pursuant to Rule 30.4 of the Rules of this Court. The petition was filed on February
18, 2020 and was placed on this Court’s docket on February 20, 2020. The Court requested a
response to the petition on April 13, 2020. The responses are currently due on May 13, 2020. An
extension of time of 30 days to file a response will create a new due date of June 12, 2020.
Petitioner PennEast Pipeline Company, LLC, asked for and received the same 30-day extension
of time to file its petition for certiorari.
This request for an extension of time is necessary to ensure that Respondents can review
and provide a thorough and appropriate response to the petition because of the assigned attorneys’
respective obligations to manage heavy caseloads under current limited resources. Lead attorney
for the State of New Jersey, Jeremy Feigenbaum, is overseeing a significant number of emergency
matters relating to the State’s COVID-19 response, and managing several other litigation matters
for the State, with deadlines during this briefing period. The deadlines include the filing of a motion
to dismiss on April 22 in Reavey v. Way (No. L-729-20) (N.J. Sup. Ct.); the filing of briefs on
Apri1 21 and April 27 in Murphy v. Fulop (No. MER-C-36- 20) (N.J. Sup. Ct.); the filing of a
motion to dismiss and opposition to preliminary relief in Novak v. Way (No. L-729-20), due May
6; the filing of a motion to dismiss in Greco v. Grewal (No. 19- 19145) (D.N.J.), due May 11; and
delivering oral argument in Defense Distributed v. Grewal (No. 19-50723) (CA5) on May 4. At
the same time, beyond his litigation responsibilities, Mr. Feigenbaum is spending significant time
providing legal advice relating to the State’s efforts to combat the spread of COVID-19.

Respondents note that Petitioner opposes this request and would instead consent only to a
shorter time extension. But as Petitioner recognized in seeking the same 30-day extension in filing
its petition for certiorari, this is a modest extension; and it is necessary to ensure that the State can
properly brief its response, even as its attorneys are working diligently on legal issues and cases
relating to the State’s COVID-19 response. Nor is the fact that the petition was pending before this
Court called for a response relevant, because counsel cannot be expected to draft a response after
waiving the right to file a brief in opposition prior to receiving such a call.
The New Jersey Conservation Foundation joins in this request to keep the responses to the
petition on the same schedule.
Mr. Feigenbaum is not yet a member of the Supreme Court Bar, but understands that the
brief in opposition must be filed by a Bar member.

Respectfully yours,

Jeremy Feigenbaum
Assistant Attorney General
State of New Jersey

cc: Counsel of Record

Edward Lloyd
Jennifer Danis
Counsel
For New Jersey Conservation Foundation

